li-

Case No.: 20-6890

IN THE
SUPREME COURT OF THE UNITED STATES

CHONG LENG LEE,
Petitioner,
V.
STATE OF WISCONSIN
Respondent.

RESPONSE TO STATE'S BRIEF IN OPPOSITION
A

ft

CHONG LENG LEE #439266
WAUPUN CORRECTIONAL INSTITUTION
P.O. BOX 351
WAUPUN, Wl 53963

?■

MAY 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT, US.

p

w

TABLE OF CONTENTS
Pages

A

4

K

INTRODUCTION

1

ARGUMENT.

1

CONCLUSION

7

TABLE OF AUTHORITIES
CASES

-

PAGE

Barker v. United States, 7 F. 3d 629 (7th cir. 1993)....................

5

Berkey v. United States, 318 F. 3d 768 (7th Cir. 2003)................

5

Burger v. Kemp, 483 U.S. 776..........................................................

1

Charolais Beeeding Ranches Ltd. v. FPC Sec. Corp., 90 Wis. 2d 97

4

Fox Film Corp. v. Mueller, 296 U.S. 207, 56 S. Ct. 183 (1935)...

5

Kyles v. Whitley, 514 U.S. 419...........................................................

1

Murdock v. Memphis, 20 Wall. 590, 22 L. Ed 429 (1875)..................

5

State v. Jordan, 73 Ohio App. 3d 524, 597 N.E. 2d 1165................

4

Statw v. Luedtke, 362 Wis. 2d 1..........................................................

4

United States v. Agurs, 427 U.S. 97 (1976)...................................... .

4

\t

Wade v. Mayo, 334 U.S. 672...................................................................
Wainwright v. Sykes, 433 U.S. 72...............................................

STATUTES
28 U.S.C.A Rule 10 (C)
Wisconsin Supreme Court Rule 71
Wisconsin Statutes §901.03, 904.03 and 908.01 (4)(a)l

1,6
5

INTRODUCTION
This Court should review Chong Leng Lee's petition for a Writ of Certiorari because this case does
have potential for law development.

ARGUMENT
I.

M

>1

CHONG HAS ESTABLISHED THAT A BRADY VIOLATION OCCURRED AND THAT THE REMEDY
OF DISMISSAL IS AN AVAILABLE REMEDY FOR BRADY VIOLATIONS.

This Court should review this case to see if dismissal is an available remedy for a Brady
violation and whether the State Courts erred in deciding that there were no Brady violation. The
State argues that this Court is a Court of review, and not first review and "regularly" declines to
address issues that a court of appeals below did not reach, (emphasis added) The word regularly
suggest that this Court has decided certain cases that needs to be screened to ensure that
"JUSTICE" is had and that a "fundamentally fair trial" was granted to the defendant, (emphasis
added). In Kyles v. Whitley 514 U.S. 419,115 S.Ct. 1555,131 L.Ed.2d 490, this Court stated: "The
Court says that we granted certiorari "[bjecause '[o]ur duty to search for constitutional error with
painstaking care is never more exacting than it is in a capital case", (citing Burger v. Kemp, 483
U.S. 776, 785,107 S.Ct. 3114, 3121, 97 L.Ed.2d 638 (1987)." Ante, at 1560.)
The State next argues that, this Court would need to find a Brady violation in order to reach
the issue of a remedy. This statement is suggestive by the State that a Brady violation could have
been reached by the lower courts and this Court. The State argues that Chong's argument were
premature in that they were abstract, hypothetical, or contingent. Chong's questions were
neither, but direct and were questions that focuses directly on what constitutional laws were
built on. In Wade v. Mayo, 334 U.S. 672, at 692, this Court stated: "The desirability of
discretionary limitation of the habeas corpus power of federal courts in respect to state criminal
prosecutions which inheres in the dual sovereignties of the federal system is re-enforced by
considerations of practical administration: (1) it is not to be assumed that state courts
deliberately deny to the individual his rights under the Federal Constitution; (2) the normal paths
of review—appeal and petition for certiorari—are open to correct federal constitutional errors
in state criminal proceedings; (3) extravagant exercise of federal jurisdiction would furnish
another technique of delay in a criminal system which often permits long periods of time to
elapse between sentencing and execution of sentence." (emphasis added in bold). This Court
through a Certiorari may review lower courts decisions to correct errors.

The State's next attempt to dissuade this Court to not review his petition is farfetched. The
State would like this Court to think that Chong recognized whether he can establish a Brady
violation is ludacris. Chong states that he has established a Brady violation and the lower Courts
failed to remedy that violation. The State next argues that Chong admittedly did not fully develop
an argument because he stated that he could not fully develop this subsidiary issue in this
petition. Chong made that statement based on the limitations to word counts, and page limits he
is allowed to file in a brief pertaining to Writs of Certiorari. If this petition was reviewed and
Chong was allowed an oral argument he would have made those subsidiary issues. Still Chong
did not fail to make Brady arguments but has made sufficient arguments in his brief to compel
this Court to review this Certiorari, (emphasis added).
The next argument the State made that "the Wisconsin Court of Appeals soundly rejected
Chong's Brady claim" is false. The State leads it's argument with saying that the evidence
destroyed was not of material or impeaching evidence, and were not favorable to the accused.
They argue that any evidence identifying someone other than Chong is misleading. If the
Wisconsin Court of Appeals took that statement as misleading then any evidence identifying
Chong is the only option they would choose. As the State noted in their brief in opposition "the
court noted, "Chong did not cite any portion of the record supporting his assertion that Watou,
Mikey, or Ryan identified a specific person other than Chong as the shooter."" That statement in
its entirety is incorrect. Chong specifically cited to a portion of the record where one of the
eyewitness, Mikey Thao, who gave an interview to Officers stated he knew Chong personally and
did not identify Chong as the shooter. This statement was given through testimony by the Officer
who did the 2013 interview and destroyed the evidence. See Chong's brief App. G at pg. 37-39
and App. H at pg. 97. If this evidence was not material or favorable to Chong then what would be
sufficient? The State next argues that Chong did not cite to any evidence suggesting that those
descriptions were inconsistent with his own clothing. Let us remind the State that this Court's
review of a certiorari is for review of:
(c) a state court or a United States court of appeals has decided an important question of
federal law that has not been, but should be, settled by this Court, or has decided an important
federal question in a way that conflicts with relevant decisions of this Court.

■ V1

U.S.Sup.Ct. Rule 10 (c), 28 U.S.C.A. and not a complete record of the trial. In Chong's brief he
brought up arguments based on federal questions this Court has decided on and explained why
he thinks the lower courts decisions are in conflict with this Court's decision. If Chong goes into
all the small particulars of his case and states to all portions of the facts of the record, then his
brief falls into subsidiary issues. As stated before, this Court is to review important questions of
federal law or questions that conflicts with decisions made by this Court. But Chong will answer
to the State's statement of Chong not citing to any evidence suggesting that those description
were inconsistent with his own appearance. It is simple, Chong's trial attorney had the officer in
charge of the 2013 interviews questioned at a hearing and the officer's testimony was that he
did not recall anything about the witnesses giving clothing descriptions. See App. G at pg. 51-52

and App. H at pg. 85-86 and 97-98. If there were no descriptions given by the witnesses pertaining
to clothing, Chong cannot suggest that the clothing wasn't or was worn by him. What description
the witnesses gave to the officer at the time they arrested Paur Lee (Paul) and not Chong. See
App. G at pg. 52. After arresting Paul and interrogating him then Chong was arrested. As stated
in Chong's brief officers told Paul that if he named Chong as the shooter they would get rid of
this case to show it wasn't Paul. See Chong's pet at pg 4. These witnesses were interviewed right
before the chose to arrest Paul and not Chong.

fi

A

The last Brady issue the State made in it's opposing brief is that Chong cannot prove the
materiality/prejudice prong. This statement is why this Court should review Chong's certiorari.
As stated before, this question is a federal question and should be settled by this Court. The
Wisconsin Court of Appeals held that the evidence at issue was not material and again noted that
the destroyed evidence "did not exculpate Chong." (emphasis in original). The court also
reasoned that "there is no evidence that the state's suppression of the December 2013 interviews
altered Chong's trial strategy." If the evidence were not material or did not exculpate Chong
then, why go reinterview these witnesses after learning they had inadvertently provided the
identities to the defense? The State is correct that there is [no] evidence the State's suppression
of the 2013 interviews altered Chong's trial strategy. That was because there was no evidence
left for Chong to use to alter his trial strategy. The State forgets that these witnesses were
suppressed by the Court. The State argument that the State was prohibited from calling these
witnesses, but not Chong is entirely incorrect. The court's exact words were "the Court (sic) shall
be prohibited from calling Ryan Thao, Mikey Thao, and Watou Lee. That said, should the police
or, rather, should the defense inquire into the police conduct of the destruction of the tapes, it
may present cause to have the issue revisited." See App. J at pg. 13. Nowhere in that statement
does it say the State was prohibited from calling these witnesses and not Chong. The Court
suppressed these witnesses in its entirety and if the defense chose to comment on the
destruction of the interviews ("inquire into the police conduct") then the remedy given was moot.
The trial court stopped any mention of these witnesses and the destruction of the evidence by
the officers in the court to all parties. That is why the trial court made the last statement saying
if defense inquire into the police conduct then the issue could be revisited. The court gave no
one a choice. The State's view of Chong not calling these witnesses to the stand and use them is
incorrect. Chong could not use these witnesses because in the 2015 interviews one of the
witnesses(Ryan Thao) was inculpating Chong as the shooter even though he did not know who
Chong was and Chong did not have the 2013 interviews to impeach this witness. See App. G at
pg. 26-27, & 50-51. He named Chong as the shooter because he had seen on T.V. that Chong was
locked up for the crime. See App. G pg. 50-52. Mikey Thao knew Chong and his 2015 interview
was not inculpatory in nature, but without the 2013 interviews it would have been fruitless to
bring these witnesses to testify on behalf of defense because there were no impeachment
evidence left to impeach these witnesses second interviews and based on the officers testimony
they had no recollection of showing these witnesses photos, or of them giving the description of
clothing the shooter wore. The defense could not even use these officers to do a thorough cross

so there was no recovering the information destroyed. It was not a mere couple of months within
the destruction of evidence when the officers chose to go re-interview these witnesses. It was
over a year and a half. By this time the witnesses and officers who did the 2013 interviews were
forgetting facts of that first interviews and the witnesses had seen Chong on T.V. arrested for the
crime so they concluded he did the crime and inculpated him as the shooter even though in the
first interview given, they did not know Chong except Mikey and he definitely did not identify
Chong as the shooter. This is the reason Chong used the case State v. Jordan, 73 Ohio App. 3d
524, 597 N.E. 2d 1165. The scenario is the same as destroying evidence in hopes of defense not
learning about it then, if defense found out about the destruction go and replace the interviews
with new ones. The State chose in there brief not to argue this and Chong can only come to the
conclusion that his assessment of this was correct. This Court also relied on United States v.
Agurs, 427 U.S., at 107,96 S.Ct., at 2399, which required a prosecutor to turn over to the defense
evidence that was "clearly supportive of a claim of innocence" even without a defense request.
The Court noted that the prosecutor's duty was not one of constitutional dimension unless the
evidence was such that its "omission deprived the defendant of a fair trial," id., at 108, 96 S.Ct.,
at 2399, and explained:

A

"Nor do we believe the constitutional obligation is measured by the moral culpability, or the
willfulness, of the prosecutor. If evidence highly probative of innocence is in his file, he should be
presumed to recognize its significance even if he has actually overlooked it.... If the suppression
of evidence results in constitutional error, it is because of the character of the evidence, not the
character of the prosecutor." Id., at 110, 96 S.Ct., at 2400 (footnote omitted) Agurs thus made
plain that the prosecutor's state of mind is not determinative. Rather, the proper standard must
focus on the materiality of the evidence, and that standard "must reflect our overriding concern
with the justice of the finding of guilt." Id., at 112, 96 S.Ct., at 2401.

II.

CHONG IS NOT PROCEDURALLY BARRED FROM ARGUING HIS YOUNGBLOOD CLAIM.

The State's argument is contradicting with the Wisconsin Court of Appeals decision. Here, the
Wisconsin Court of Appeals decided that the evidence was potentially exculpatory and it further
found that police had acted in bad faith. On appeal the State did not dispute this fact and the the
Wisconsin Court of Appeals deemed that point conceded. "As for the second prong of the
Youngblood analysis, the circuit court concluded the December 2013 interviews were potentially
exculpatory, and it further found that the police had acted in bad faith by destroying the
interview recordings. On appeal, the State does not dispute that the interviews were potentially
exculpatory. We therefore deem that point conceded. See Charolais Breeding Ranches, Ltd. v.
FPC Sec. Corp., 90 Wis. 2d 97, 109, 279 N.W.2d 493 (Ct. App. 1979). In order to prove that
potentially exculpatory evidence was destroyed in bad faith, a defendant must show that the
officers who destroyed the evidence: (1) were aware of its potentially exculpatory value or
usefulness; and (2) acted with official animus or made a conscious effort to suppress exculpatory
evidence. Luedtke, 362 Wis. 2d 1. Here, the circuit court's finding that the officers acted in bad

faith by destroying the interview recordings is not clearly erroneous. The officers interviewed
Watou, Mikey, and Ryan early in their investigation, but they did not disclose that fact to the
defense. They nevertheless retained the interview recordings for seven or eight months. An
officer conceded that the police eventually destroyed the recordings because they knew the
defense would be able to obtain them through discovery. These facts support a finding that the
officers acted in bad faith by destroying the recordings. As the circuit court noted, the decision
to destroy the recordings was "made with some forethought" and was "an unusual practice" that
was "inconsistent with the spirit of [the police department's] interview retention policies."
Although the circuit court determined that the police violated Chong's right to due process by
destroying potentially exculpatory evidence in bad faith, the court nevertheless concluded that
dismissal of the homicide charge was not the appropriate remedy for that violation "in light of
the facts and circumstances associated with this case." Instead, the court granted an alternative
form of relief—namely, it prohibited the State (but not Chong) from calling Watou, Mikey, or
Ryan to testify at trial. Chong now argues the court erred by failing to dismiss the homicide
charge." See Wisconsin Court of Appeals Decision at pg. 17 p. 44-46. (Quotation in original)
The State's argument now that Lee did not object to the suppression is procedurally barred
because as stated before the State chose not to dispute this fact on appeal. See Berkey v. United
States, 318 F.3d 768, 774 (7th Cir.2003); Barker v. United States, 7 F.3d 629, 632 n. 2 (7th
Cir.1993). The State's argument that the Wisconsin Court of Appeals decision to dismiss the
question of whether a dismissal in this case was proper was adequate and independent to State
laws is incorrect. Now this Court may choose to review sovereign laws that affects federal laws.
See Wainwright v. Sykes, 433 U.S. 72, 97 S.Ct. 2497, 53 L.Ed.2d 59' "As to the role of adequate
and independent state grounds, it is a well-established principle of federalism that a state
decision resting on an adequate foundation of state substantive law is immune from review in
the federal courts." Fox Film Corp. v. Muller, 296 U.S. 207, 56 S.Ct. 183, 4 80 L.Ed. 158 (1935);
Murdock v. Memphis, 20 Wall. 590, 22 L.Ed. 429 (1875). Here the foundation of state law was
not an adequate foundation of state law and therefore not immune from review. The state relied
on facts that are erroneous such as "Chong could have obtained comparable evidence by other
reasonable means and that Chong had access to the April 2015 interviews of Watou, Mikey, and
Ryan, and a defense investigator had interviewed Ryan prior to trial." See State's brief in
opposition. First Chong would like to reiterate that the 2015 interviews were inculpatory and
without the 2013 interviews to be used as impeachment evidence the point was moot because
if the defense chose to inquire into the destruction of the evidence then that would again open
all doors to the parties and allow the State to use the 2015 interviews and the remedy given
would have been a meaningless remedy. This is why the dismissal remedy would have been a
proper remedy to give. The police should not be allowed to destroy evidence in the hopes that a
defendant not find out about it and then if they do then just go and replace them to ensure a
conviction. The State next argues that Wis. Stat. §908.01(4)(a)l gave Chong an out to make
arguments of prior inconsistent statements is incorrect and misleading. The State is saying that
the 2015 interviews could be meaningfully crossed by the defense without the 2013 interviews.

j

How could Chong prove the 2015 interviews as inconsistent testimony if there is no other
interviews to impeach the 2015 interviews? The officers who did take the stand could not
remember any of the 2013 interviews other than that they interviewed them and their names.
Any inconsistent statements or exculpatory statements given by Watou, Ryan, and Mikey were
destroyed. Chong did not need to present the question of whether there was a Youngblood
violation. He had already proved it at the trial court level and the state chose not to argue it at
the appeals level. The State's arguments now contradicts their actions at the lower court levels.
Chong is not the one who is barred from litigating this argument, but the State. Chong simply
questioned the remedy given because the remedy given is in itself unfair and unjust to a
defendant and caused him from calling witnesses who did identify someone other than Chong as
the shooter. See Wade v. Mayo, 334 U.S. 672. Now the State argued in their opposing brief that
the Court should have found no bad faith is entirely opposite to their argument that Chong is
procedurally barred from making these arguments. See State's opposing brief at pg. 16. The State
acknowledges that multiple officers testified that the interviews destroyed were done to protect
witnesses who had expressed concern about their safety and that testimony provided a plausible
motive for the destruction of the recordings, therefore suggesting that the court erred in finding
bad faith. What the State fails to State is that through the officers testimony they knew through
a constitutional law, the officers knew they would have to turn this evidence over and knew the
exculpatory or potential exculpatory value of this evidence, and that was the reason why they
destroyed this evidence. If the State is suggesting that these officers destroyed these recordings
because they were concerned about their safety then Chong was correct in that they had
identified someone other than Chong because these witnesses were questioned before Paul Lee
was arrested and not Chong so they had no right to fear Chong for fear of their safety. See App.
G in its entirety.
This Court should review this petition. Chong has shown that a Youngblood violation occurred
and that the State conceded to this argument but chose the wrong remedy and only gave Chong
a remedy that was prejudicial and unfair to his case. The State's argument in these interviews as
inadmissible hearsay is an attempt to mock the judicial system. The prosecution team sought
these witnesses out and destroyed these evidence. They are eyewitnesses to the crime and could
identify the shooter in his characteristics, clothing, direction of travel and personality. So the
State argument fails because the State was pushing for the admittance of the 2015 evidence and
for them to say it is inadmissible hearsay now is in contradiction to their previous arguments.
Again the State fails to recognize the trial court's ruling. The court clearly stated that the [cjourt
(sic) shall be prohibited, not the State, (emphasis added). See App. J at pg. 13. So the State's
argument is frivolous. The State also argue's Chong is barred due to the remedy given was a
remedy Chong asked for. This is a false statement. Chong did not ask for this remedy. Chong
included suppression of identification of Chong from these witnesses as an alternative to
dismissal. Chong did not request suppression of the witnesses in it entirety. This case is the
perfect case for this Court to review.

III.

THE MISSING TRANSCRIPTS WERE OF NEED TO IDENTIFY ERRORS AND CHONG IS NOT
BARRED FROM LITIGATING THIS ISSUE FURTHER.

The State is now making an argument that the error made was harmless and Chong should be
barred from arguing this to the higher court. The State cannot prove themself that the error
made was harmless because there are no transcript to prove if the error made was harmless.
They relied on a reading of the inadmissible evidence by a witness. That proved more grounds
for this Court to review this issue. How can the trial court allow this evidence he previously
suppressed at a pretrial hearing go into evidence and then present it to the Jury during
deliberations? We will never know because there are no transcripts to this so there is no
identifying where the error occurred. The State's argument that the Court Reporter Act applies
to federal courts only is false. The State of Wisconsin has adopted similar laws that are analogous
to this law. See Wis. Supreme Court Rule 71. Now the State argued that this Court recently
decided in Pope, In Pope, he was missing the entire transcript and so the State argues that
because Chong is not missing the entire transcript he is not entitled to relief. The State does admit
in their brief that Chong is missing transcripts showing the parties' discussion of the evidence
during in-chambers conference and while the jury was deliberating. See opposing brief at pg. 21.
These are the most important parts of Chong's trial. To know if there were any objections made
by defense attorneys or the State and if there were any errors by the trial court. Deliberation is
one of the most important step at trial and if the jury were swayed with any type of prejudicial
evidence then it would have resulted in a mistrial. Chong cannot prove neither the ineffective
assistance of counsel nor trial court error because there is no transcript to support that theory.
Thus making the State's and Wisconsin Court of Appeals argument frivolous. This is an attack on
the judicial system saying that the most important parts of a trial may be held without a court
reporter to transcribe the ongoings at a critical stage of trial. See Wis. Stat. W.S.A. 901.03 Rulings
on evidence and 904.03. Exclusion of relevant evidence on grounds of prejudice, confusion, or
waste of time. Although we know that evidence that was suppressed made it to the jury we do
not know what the objections were or if there were errors made by the trial court. This Court
should review this petition.
CONCLUSION
This court should choose to review this petition for a writ of certiorari and allow oral
arguments or further briefing.
Dated this 14 day of May, 2021.

Submitted bya

K

